CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA PLATINUM REWARD
Approved Credit Limit:
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
10.90%
APR for Balance Transfers

10.90%

APR for Cash Advances

10.90%

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will
not charge You any interest on purchases or balance transfers if You pay
Your entire balance by the due date each month. We will begin charging
interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee

1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 5 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100283-MXC20-P-2-060217 (MXC201-E)

Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Collection Costs:
For Michigan Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the
extent permitted by state law.
For All Other Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates:
The Purchase APR is 10.90% which is a daily periodic rate of 0.0299% .
The Balance Transfer APR is 10.90% which is a daily periodic rate of 0.0299% .
The Cash Advance APR is 10.90% which is a daily periodic rate of 0.0299% .

Branch

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Account

User

02100283-MXC20-P-2-060217 (MXC201-E)

